<html>
<title> - U.S. FOREIGN ASSISTANCE IN FY 2015: WHAT ARE THE PRIORITIES, HOW EFFECTIVE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   U.S. FOREIGN ASSISTANCE IN FY 2015: WHAT ARE THE PRIORITIES, HOW 
                               EFFECTIVE?

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2014

                               __________

                           Serial No. 113-161

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-516                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1176617e517264626579747d613f727e7c3f">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Rajiv Shah, Administrator, U.S. Agency for 
  International Development......................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Rajiv Shah: Prepared statement.....................     7

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Material submitted for the record..............    63
Written responses from the Honorable Rajiv Shah to questions 
  submitted for the record by:
  The Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    65
  The Honorable William Keating, a Representative in Congress 
    from the Commonwealth of Massachusetts.......................    67
  The Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................    74
  The Honorable Ted Poe..........................................    76


   U.S. FOREIGN ASSISTANCE IN FY 2015: WHAT ARE THE PRIORITIES, HOW 
                               EFFECTIVE?

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:10 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing of the Committee on Foreign 
Affairs will come to order. We will ask all members to take 
their seats at this time.
    Today, we welcome Rajiv Shah, Administrator of the U.S. 
Agency for International Development, who is responsible for 
managing roughly 60 percent of the total $32 billion foreign 
operations budget. A common refrain is that foreign aid 
accounts for less than 1 percent of the Federal budget. As we 
will hear, aid programs that are effectively executed can help 
create more stable societies, speed economic growth, and 
advance U.S. national security interests. Still, the bar for 
justifying this spending must be high given our unacceptable 
deficit.
    Of course, the principal goal of U.S. foreign assistance 
must be to get the United States eventually out of the business 
of foreign assistance because to succeed, developing nations 
must unlock their own growth potential. To that end, I am 
pleased that the administration is committed to the goals of 
the Electrify Africa Act, bipartisan legislation which recently 
passed this committee. Targeted investments in power generation 
can help Africans attract foreign investment and produce the 
goods to grow their economies. We look forward to continuing to 
work with USAID on this important initiative.
    I am encouraged by the administration's commitment and by 
the Administrator's commitment to a new model of development 
that focuses on transparency. It focuses on science, and 
innovation, and engagement with the private sector. Dr. Shah 
has shown that he is not afraid of upsetting the status quo.
    I am also pleased that this budget builds upon recent gains 
in the international food aid reform effort. Last year, I 
worked closely with the ranking member, Mr. Eliot Engel of New 
York, and Representatives Marino and Bass, and USAID, along 
with a broad coalition of advocacy groups, and ultimately we 
succeeded in freeing up an additional $100 million from 
inefficient purchase and shipping regulations so we can 
strengthen food markets, promote greater self-sufficiency, and 
save more lives, more quickly, and for less money. I have seen 
firsthand the need for a quick and efficient food aid program, 
having recently visited Tacloban in the Philippines, which of 
course was ravaged by the typhoon that struck that island.
    Unfortunately, USAID will have no shortage of challenges 
ahead. Needs in Syria, and the region are growing; humanitarian 
space there is shrinking. U.S. investments in Afghanistan and 
Pakistan must contend with debilitating corruption and waste, 
and the withdrawal of U.S. forces from Afghanistan will only 
place aid at greater risk. I am disappointed that the 
administration's request for Egypt failed once again to 
prioritize true economic reforms, including a focus on the 
clear title to property and property title transfer, that would 
enable entrepreneurs to enter the formal economy, as explained 
to us in our committee hearing that we had on the importance of 
aid reform there. USAID programs in Haiti appear to be poorly 
planned and largely unsustainable; this committee passed good 
oversight legislation aimed at improving conditions and the 
value of our work on that troubled island. There are concerns 
about the administration's lack of focus on democracy 
assistance.
    Needless to say, your challenges are great, your challenges 
are growing every day, your task is compounded by the fact that 
there are no quick fixes in your line of work. That would be 
the case even if you did not have to contend with a wave of 
extremism affecting many countries. With that in mind, we 
should be looking to maximize every resource at our disposal, 
and this includes better leveraging the support and investment 
of the many diaspora communities throughout the U.S. that are 
active in the same regions that you are.
    I look forward to working with you, Administrator Shah, to 
address these pressing concerns, while advancing our strategic 
goals, promoting economic growth, and graduating more countries 
from foreign aid.
    I will now turn to Ranking Member Eliot Engel from New York 
for his opening statement.
    Mr. Engel. Thank you, Mr. Chairman, and also thank you for 
holding this important hearing.
    Dr. Shah, thank you for your service, and for being here 
today to review the administration's foreign assistance budget 
request for Fiscal Year 2015.
    I would like to begin by reminding my colleagues that the 
international affairs budget as a whole, is only about 1 
percent of the entire Federal budget, and the foreign 
assistance funding that we will discuss today is only a 
fraction of that amount. I have constantly been saying that we 
should have more money in the budget for foreign aid. The 
American public thinks that we spend about 15 percent of our 
budget on foreign aid and in reality it is just under 1 
percent.
    Having said that though, it is important that every tax 
dollar is spent wisely and one of the key responsibilities of 
this committee is to conduct effective oversight of USAID, the 
State Department, and other foreign affairs agencies. But let's 
not fool ourselves into believing that we can solve our larger 
budget issues by slashing foreign aid. That is certainly not 
the case. So what do we give to that tiny slice of the budget 
that we spend on foreign assistance? It is easy. We promote 
American leadership around the world, we support allies in 
need, we creates new markets for American goods, and generate 
jobs here at home. We help impoverished men, women, and 
children suffering from hunger and disease. We prevent wars 
before they happen. Through all of these activities we make a 
critical investment in our own security.
    Dr. Shah, I would like to commend you personally for your 
leadership on so many important issues. You and I have worked 
very closely together, and I must say that I am very impressed 
with your intellect, your hard work, your dedication, and your 
good heart. The administration has made some very tough 
decisions on funding priorities, and I am impressed by USAID's 
ability to accomplish so much on such a limited budget.
    As we have discussed, I am disappointed by the proposed 
cuts to the bilateral tuberculosis program and to the 
humanitarian accounts. The United States has helped the world 
make tremendous gains in childhood survival, maternal health, 
and the fight against tuberculosis and I fear that reductions 
in these areas will make it difficult to sustain the progress 
we have made.
    Likewise, I am concerned that we will need more funding for 
humanitarian relief in the coming fiscal year, not less, to 
deal with famine and crisis in South Sudan, the Central African 
Republic and other countries. On food aid, I am pleased that 
the budget request builds on the modest gains we made in the 
foreign bill by seeking additional flexibility that will allow 
USAID to reach about 2 million more people each year. Dr. Shah, 
you and I have had extensive discussions about why there needs 
to be food aid reform. We can get more food aid to people 
faster and cheaper, and to me, that's the bottom line. Thank 
you for your leadership on that as well, because we have 
piggybacked on your proposals, the chairman and I have made 
great progress in letting people know that this has to be done.
    I am concerned that the gains we have made on food security 
will be imperilled unless we mount an aggressive effort to 
combat the effects of climate change. This budget would help 
developing countries reduce their greenhouse gas emissions and 
help vulnerable populations deal with the impacts of global 
warming.
    Dr. Shah, your signature initiatives emphasize public 
private partnerships and harnessing innovation. Your latest 
effort launched just weeks ago is the U.S. Global Development 
Lab; I have high hopes for this initiative and would like you 
to describe some of the lab's key products and innovations. I 
am particularly impressed by the invention of the Pratt pouch, 
which effectively prevents the transmission of HIV from mother 
to child. It costs only 9 cents per pouch, can be used 
anywhere, and will make a big difference in our fight to create 
an AIDS-free generation.
    With regard to Haiti, this committee has expanded oversight 
of U.S. assistance provided to that country, since the 
devastating 2010 earthquake. I am pleased that U.S. 
reconstruction aide to Haiti has accelerated, and I hope that 
USAID will focus more intensely on ensuring that our assistance 
to Haiti encourages investment in the country.
    On Cuba, I have closely followed the recent press reports 
about a democracy assistance program and hope you will use this 
opportunity to discuss the purpose and effectiveness of these 
programs.
    In Africa, USAID is leading the Power Africa Initiative 
which will increase access to affordable electricity, for 
hundreds of millions of people in sub-Saharan Africa. This will 
help fuel greater economic growth and development across the 
continent. I hope that the Electrify Africa Act, legislation 
that Chairman Royce and I authored, will bolster your efforts 
and exchange the life of this promising program.
    In Afghanistan and Pakistan, the U.S. has spent billions of 
dollars on roads, agriculture, rule of law, and capacity 
building. I hope you will focus on how USAID plans to monitor 
projects in Afghanistan after the withdrawal of all U.S. combat 
troops at the end of 2014, and the continuing value of our aid 
to Pakistan.
    On Ukraine, the President recently signed into law a 
bipartisan legislation to provide additional assistance with a 
focus on strengthening civil society, combating corruption, 
promoting energy efficiency and diversification, and preparing 
the country for democratic elections. USAID will be a lead 
agency in implementing this assistance and I look forward to 
hearing your views and how best to manage these programs. I 
might add that the chairman and I are leading a trip to Ukraine 
in a very, very short time.
    And finally, I regret that the budget request plans for a 
long road ahead in Syria. More than 3 years after the start of 
this horrendous conflict, the Assad regime continues to commit 
atrocities with impunity. The country has become a magnet for 
extremists, and the humanitarian crisis gets worse with each 
passing day. I believe we should do more to help bring this 
conflict to an end and relieve the immense suffering of the 
Syrian people.
    So Dr. Shah, I would like to thank you again for being here 
and I look forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    This morning, we are joined by Rajiv Shah, the 
Administrator of USAID. Dr. Shah is the 16th Administrator of 
USAID and previously, he served as Under Secretary of Research, 
Education and Economics at USAID, and as chief scientist at the 
U.S. Department of Agriculture. We welcome him back to the 
committee.
    Without objection, the witness' full prepared statement 
will be made part of the record. Members will have 5 calendar 
days to submit any statements, questions, or extraneous 
material for the record. We will ask Administrator Shah if you 
would, please, summarize your remarks.
    Administrator Shah.

  STATEMENT OF THE HONORABLE RAJIV SHAH, ADMINISTRATOR, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Shah. Thank you, Chairman Royce, and thank you Ranking 
Member Engel, and to all of the members of the committee.
    I am pleased and honored to be here to present a 
justification for President Obama's Fiscal Year 2015 request 
for USAID and for development assistance around the world. As 
the President has said on numerous occasions, our investments 
in development, health, humanitarian affairs, and in supporting 
civil society and democratic governance are a critical part of 
our own national security strategy.
    I first want to start by just saying thank you to all of 
the members of the committee and in particular, the chair and 
the ranking member. Your support over the last years has helped 
us rebuild our staffing, rebuild our capacity to manage 
budgets, and rebuild our policy leadership at USAID. You have 
helped us expand our partner base to include local 
organizations around the world, private companies, civil 
society organizations and NGOs.
    You have helped us to prioritize science and technology as 
a core driver of how America can help accelerate the fight to 
end extreme poverty, and supported the launch last week of the 
U.S. Global Development Lab designed to bring university 
scientists, businesses, and young people all together to 
literally invent new tools and technologies that can accelerate 
the fight against disease, hunger, and poverty. You have 
supported our efforts to aggressively transform the way we 
evaluate our programs, so that today all of our major programs 
are evaluated by third parties, and those evaluations are 
conducted at a high level of quality and made public in full 
form.
    We have tried to pursue a new model of development that 
expands the partnership base and brings innovation and 
technology to the task of ending extreme poverty. I think we 
have seen in many instances the success of this effort. The 
President's Feed the Future Program, which operates in 19 
countries, now reaches 7 million small-scale farmers each year, 
helping to move 12.5 million children out of a condition of 
chronic hunger and malnutrition. This takes place in 
partnership with the private sector, which has made nearly $4 
billion of private investment commitments alongside U.S. 
investment, this is generating concrete specific results that 
are reducing extreme poverty in some of the most impoverished 
countries in the world.
    In child survival, this budget calls for a $2.7 billion 
commitment to a topic where America has traditionally led. From 
1990 to today, we effectively have helped save 5 million 
children's lives every year through our collective efforts with 
partners. We have now set for ourselves an ambitious goal of 
taking down from 6.6 million to near elimination the remaining 
number of children who die every year unnecessarily, and we 
know with your ongoing commitment and support we can achieve 
that objective.
    Similar outcomes are being seen in education, in water, and 
in energy where we really value the leadership presented by the 
committee with respect to the Electrify Africa bill. In 
disaster assistance, unfortunately we have had an 
extraordinarily active year. The response in the Philippines to 
Typhoon Haiyan has been seen as a global best practice and I 
just gathered with Secretary Hagel and the ASEAN Defense 
Ministers to learn from that example.
    One of the reasons that was so successful was the ability 
to use flexibly purchased food locally, to ensure that we could 
quickly and efficiently meet the needs of children who 
otherwise would have suffered from hunger, and quickly scale up 
a program to reach 3 million people in the context of a natural 
disaster. We look forward to further discussions and support on 
the President's proposal to take food aid reform forward with a 
request for 25 percent flexibility in the program.
    We know that we are currently facing three level three 
emergencies around the world: Syria and its neighbors, the 
Central African Republic, and South Sudan. Given the pressures 
that will take place, we appreciate opportunities to work with 
the committee to continue to optimize our response.
    We also support democratic governance, civil society, and 
human rights throughout the world in our programs. One 
manifestation of that was our support for the Afghan elections 
this past weekend, which I believe defied expectations in terms 
of turnout, and in particular, the turnout of women in the 
context of that vote. We look forward to discussing our 
democratic governance programs in greater detail.
    And I would like to conclude just by noting that people 
often tell me that foreign assistance is difficult to justify 
politically, and I know that each of you spend time with your 
constituents and in your communities doing that work. I want to 
thank you for that. I really believe that America stands at a 
unique time in our history when it comes to our efforts to 
address global poverty.
    Really for the first time, we can credibly suggest that it 
is possible to end extreme poverty, $1-a-day poverty, within 
the next two decades and it will require continued support from 
this committee, from businesses, from scientists, from members 
of the faith community, from NGOs, from civil society, and from 
governments around the world to achieve that goal. And we 
appreciate your support to that end.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Shah follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you very much, Administrator Shah.
    I wanted to start with a few questions here. One on land 
grabbing, and the lack of enforceable property rights and title 
transfer in developing nations, which act as significant 
barriers to sustainable development and to long-term growth. We 
have seen this up close in terms of the results in Tunisia and 
in Egypt. We have seen the shock waves created. It is a source 
of tremendous political and social instability.
    In December, there was an insightful article, ``Lessons 
From the Past: Securing Land Rights in the Wake of Typhoon 
Haiyan.'' The article quoted a USAID official saying that 
unequal access to land is a central issue that cuts across both 
rural and urban sectors in the Philippines. Unequal access to 
land is a significant issue that occurs worldwide. We know of 
significant land grabbing that is occurring, and has occurred 
for some years now, in Cambodia and in China and in Peru.
    Administrator Shah, what is USAID doing to urge the 
Government of the Philippines to address the issue of land 
grabbing and, most importantly, what about the rampant 
corruption at a local level that allows land grabbing to occur? 
I have heard over and over again, that the Philippines is 
making progress on fighting corruption. However, even 
Philippine anticorruption officials will admit that corruption 
in this area, in terms of land grabbing, is an ongoing tragedy. 
With all of the assistance that we are providing to Manila, 
isn't it true, and isn't it time, that USAID and the 
administration should be focused on this issue given what is at 
stake?
    For 3 years now, I have tried to work to make this a 
priority with USAID. I have received emphatic support verbally. 
Three years later after returning, I see no progress. So will 
this be the year when we finally make a difference?
    Mr. Shah. Thank you, Mr. Chairman. It will. We believe this 
is a critical issue. As I have seen personally in efforts where 
I handed out land titles to Colombian farmers who were 
returning to their farms after a conflict that has lasted 
decades. The power of respecting property rights, providing 
titles, giving people the basis to seek financing to invest in 
their own future is an extraordinarily powerful strategy to 
reduce poverty and extreme poverty.
    In the Philippines 46 percent of the 24.2 million parcels 
are titled, and even amongst those, a high degree of corruption 
and ineffective respect for those titles hamper the ability of 
many poor families to secure their future.
    I am thrilled that we have been working together on this. I 
want to say thank you for your specific visits to the country, 
and work with our program. We can commit today to use Fiscal 
Year 2014 resources to engage in efforts that will help both 
work with the government on corruption issues, enforcement, 
community policing, and support for their land management 
office, as well as with local communities to help address this 
challenge.
    Chairman Royce. Thank you. The other question I was going 
to ask you is, last week this committee held a hearing on women 
in education, followed by a markup on our legislation, the 
Malala Yousafzai Scholarship Act. Our debate, I think, drove 
home a very important point, and that is, education is a very 
powerful tool that can advance U.S. national security 
interests, while creating more stable societies. For many years 
now, I have expressed concerns about the rise of these Deobandi 
schools. I have made three trips to Pakistan to urge the 
government there to close them. They really prey upon the 
disenfranchised, and they are breeding radicalism. I have 
visited schools that have later been destroyed by the Taliban 
up in the Northwest frontier.
    I think that the Pakistani-American community here in the 
United States, based on my work with them, see how we can 
better coordinate efforts to promote education and private-
sector growth in Pakistan. They have a very real interest in 
making certain that this radicalization is offset, and that the 
education of girls is advanced.
    What can be done to better leverage and support investments 
by the Pakistani diaspora in education and private-sector 
development in Pakistan, and how are you safeguarding U.S. 
assistance against corruption inside Pakistan?
    Mr. Shah. Well, thank you, Mr. Chairman. You know, I 
appreciate the leadership the committee has shown especially in 
taking forward the legacy that Malala Yousafzai has created by 
using her voice and the power of her moral example to advocate 
for this issue. USAID has supported a large-scale program in 
Pakistan on education with specific focus on girls and early 
grade learning literacy outcomes.
    We target reaching 3.2 million children. We have helped to 
reconstruct more than 1,400 schools. We have worked with 
Federal and provincial governments in a number of states to 
make sure that this issue is a priority, and we have engaged in 
teacher training, curricula, and standards and perhaps most 
importantly, the measuring of literacy outcomes through the 
Early Grade Reading Assessment which USAID has pioneered and 
tested.
    We look forward to working with the Pakistani-American 
community on this. We have new mechanisms to allow us to do 
that and I think, you know, that ability to engage the diaspora 
community, which is something we have enhanced over the last 
several years, would be quite welcome to take this program to 
an even greater level of effectiveness.
    Chairman Royce. Thank you, Administrator Shah.
    We will turn now to Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman.
    I have four questions. I am going to try to do it quickly.
    First one is about something I mentioned in my opening 
statement. That is tuberculosis. It is usually treatable, as 
you know, with a course of inexpensive drugs. But it is still 
the leading curable infectious killer in the world, claiming 
1.3 million lives per year. The emergence of multidrug 
resistant and extensively drug-resistant TB strains really pose 
a direct threat to the public health of the U.S.
    This year's budget request for USAID's tuberculosis 
program, proposes a $45 million cut from Fiscal Year 2014's 
appropriated level of $236 million. So at a time of tight 
budgets for PEPFAR and the global fund, can you elaborate on 
how USAID's tuberculosis program could absorb a cut of this 
magnitude and still carry out its vital mission?
    Mr. Shah. Thank you. I appreciate your leadership on 
tuberculosis. I think it has been very, very important, and 
that is part of why we have seen a 50 percent reduction in TB 
mortality and TB is projected to achieve its millennium 
development goal target. We are very concerned about multidrug 
resistant tuberculosis which largely has emerged in places like 
India, South Africa, China, Brazil, and Russia.
    I would note a few things: The first is, in a difficult 
budget environment we have had to make some tradeoffs, but what 
we have tried to do here is recognize we have three pots of 
funding for TB; the USAID Bilateral Program, the $180-plus 
million in PEPFAR that goes to TB, and the global fund 
commitment which has gone up over the last several years and 
where the United States recently encouraged and voted for 
global fund spending more of its resources from 14 to 18 
percent on tuberculosis in particular. So in aggregate, I think 
the United States' commitment to tuberculosis remains at a 
consistent and strong level.
    Second, we are engaging more in partnerships, especially in 
countries that can afford to pay for much of the response but 
require some technical partnership with us. I saw this 
specifically transpire in India, where they are very focused on 
MDR and what they call XDR TB. And third, we look forward to 
working with you to continue to make sure that we are 
optimizing our program. I think USAID has had a very strong 
history of supporting the World Health Organization, CDC, and 
local country governments around the world to take more of 
their own domestic responsibility for this issue.
    Mr. Engel. Thank you. Let me ask you a couple of Middle 
East questions. The first one on Syria. The U.N. Security 
Council has unanimously approved a resolution which demands all 
parties, particularly the Syrian authorities, promptly allow 
rapid, safe, and unhindered humanitarian access to U.N. 
humanitarian agencies and their implementations. Assad, there 
is all kinds of questions about the leader of Syria, Assad, 
stealing the food, stealing the aid, not letting it go to rebel 
areas that need the aid.
    Can you just give us a quick overview about Syrian 
humanitarian aid?
    Mr. Shah. Well, thank you, and as you know, and as members 
of the committee have really worked hard to highlight, this is 
an extraordinary crisis with 9.5 million people in need inside 
of Syria, and 2.5 million refugees now, especially more in 
Jordan and Lebanon that are really taxing those countries' 
ability to sustain social services for those mostly young 
Syrian refugees.
    The United States is proud of the fact that our aid and 
assistance, more than $1.7 billion over the last few years has 
reached and continues to reach more than 4 million people 
inside of Syria. More so than any other country, we reach 
affected communities even in opposition areas. Surgeons and 
doctors that we support have provided more than 250,000 
surgeries, everyone of them heroic in the context of being 
targeted, and in many cases having staff lose their lives.
    We continue to provide support, but I want to say just a 
few things. One is, U.N. Security Council resolution was 
reviewed by Valerie Amos just a week ago or 2 weeks ago and she 
reported to the Security Council that in fact, the Assad regime 
had not lived up to the terms of the Security Council 
resolution in terms of greatly expanding access.
    Second, we know there are specific pockets and communities 
inside of Syria, roughly 220,000 people that are held in 
besieged areas, where literally, preventing food and water from 
reaching them is used as a tactic of war. And that is in 
violation of every basic humanitarian principle, including how 
war should be conducted. So in this context, this is an 
extraordinarily difficult problem.
    The committee's work and your personal efforts to allow for 
more flexibility and food assistance have allowed us to reach 
so many more beneficiaries, women, and children, especially in 
Jordan, and Lebanon, that we simply couldn't truck American 
food to, but now they have got a card that has USAID logo on 
it. It says, ``From the American people,'' and our humanitarian 
leader, Nancy Lindborg, just sat with a group of women in Amman 
who said, thank you so much for this card. It is what gives us 
dignity and keeps us going. That is only happening because you 
have fought for greater flexibility in food aid and food 
assistance, and I just want to say thank you for your 
leadership.
    Mr. Engel. Well, thank you. I am just wondering if quickly 
I can stay on the Middle East and ask you one quick question 
about the Israeli-Palestinian negotiations. The administration 
has requested over $400 million in Fiscal Year 2015 funds for 
the Palestinian Authority and last week Palestinian President 
Abbas announced the Palestinians would be joining 15 
international conventions, seemingly a violation of the 
obligations under the agreement to negotiate. Now they are 
calling for several new preconditions to talks, making us doubt 
their good faith in the negotiations.
    The only pathway to a Palestinian state and sustainable 
peace between Israel and the Palestinians is through a 
negotiated settlement, not a unilateral declaration by the 
Palestinian Authority. So let me just simply say: How will our 
assistance strategy change if the Palestinians pursue a 
unilateral path?
    Mr. Shah. Well, let me just say, Secretary Kerry has very 
ably articulated the administration's position, and the 
extraordinary leadership he has taken to support negotiations 
and continues to moving forward. We play a part at the 
Secretary's direction of providing supported in the West Bank 
as you have noted. None of the agreements that were signed last 
week endanger at this point that support right now. But we will 
be looking very carefully to see how this transpires, 
coordinating our efforts.
    And I will just add, I was with Secretary Kerry in 
Bethlehem a few months ago when we launched a high-impact 
infrastructure initiative in the West Bank, and I think the 
American people should take some pride in the fact that our 
assistance in the region helps to maintain stability and create 
some opportunities for dialogue and negotiation, but the 
Secretary, of course, went into this in much more detail 
yesterday and I will defer to his comments on it.
    Mr. Engel. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    We now go to Ileana Ros-Lehtinen, the chairman emeritus of 
this committee, from Florida.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman.
    Thank you, Dr. Shah. I would like to give you an 
opportunity to clarify some press reports about the Cuba 
Twitter program. First, was the program covert and top secret?
    Mr. Shah. No.
    Ms. Ros-Lehtinen. Second, does USAID implement similar 
programs aimed at increasing the free flow of information 
throughout the world in closed societies?
    Mr. Shah. We support civil society, yes.
    Ms. Ros-Lehtinen. Third, will USAID remain committed to 
reaching out to people suffering under closed societies and 
dictatorships?
    Mr. Shah. Yes.
    Ms. Ros-Lehtinen. Thank you, Dr. Shah. So contrary to what 
the media have reported, the democracy programs for Cuba are 
transparent, they are open. The Cuba democracy program with its 
$20 million price tag, in fact, is one of the most scrutinized 
programs in our foreign aid portfolio. The real question here 
is why does the press and some in our congressional family 
demonize these programs?
    The Freedom House has a report called ``Freedom on the 
Net.'' And this report lists Cuba as the world's second worst 
violator of Internet freedom. Only Iran is worse. Thus, Cuba is 
worse than countries like Syria, Bahrain, Burma, Belarus, where 
no one in Congress seems to have a problem promoting Internet 
freedom in those countries. So why not Cuba?
    Some may have a little agenda geared toward supporting the 
Castro dictatorship instead of supporting the people of Cuba, 
and wish to put an end to these successful programs. Many of us 
on this committee have spent a lot of time and energy 
supporting human rights in Russia, in Vietnam, in Egypt, and 
Tunisia, Ukraine, Iran, Syria. So why not Cuba? Why does our 
foreign policy agenda discriminate against the freedom-seeking 
people in the western hemisphere?
    As you know, Dr. Shah, and I congratulate you for being so 
sensitive to this, the Cuban people have been suffering under 
the Castro dictatorship for more than 50 years; not because of 
U.S. policy, but because the Castro brothers continue to 
harass, to imprison, to torture, to kill the opposition.
    I am a political refugee because my family emigrated to the 
United States when I was 8 years old. We were seeking 
democracy. And I remember driving through Havana, and my father 
telling me, duck down, because gunshots were being fired all 
around us. And my dear friend Albio Sires, he was 11 years old 
when his family came here from Cuba, and he can also share some 
of these heartbreaking stories. But these tragedies continue 
today in the daily lives of the people of Cuba.
    One pro-democracy leader is named as you know, Dr. Shah, 
Jorge Luis Garcia Perez, known by his nickname Antunez. He was 
in Castro's jail more than 17 years. Now that he is freed from 
one jail to a bigger jail, that is Cuba, he continues to fight 
for democracy, and for respect for human rights. In fact just 2 
months ago, Antunez risked his life and went on a hunger strike 
with no food or liquids. Why? All for the sake of freedom.
    Berta Soler, another human rights advocate, she is a leader 
of an organization called Las Damas de Blanco, the Ladies in 
White. These brave women are comprised of the moms, the 
sisters, the friends, the relatives of political prisoners and 
they march every Sunday in peace to mass wearing all white, 
calling for freedom.
    They march in peace, Mr. Chairman, as you know, with the 
gladiolus in their hands, you have spoken about them. And these 
women are met with violence, beatings, imprisonment. These pro-
democracy advocates are the faces of the people that you, under 
your leadership, in USAID have been trying to help with these 
programs. Thank you for that, Dr. Shah.
    And the U.S. citizen Alan Gross, as we know, is on his 
fifth year of being unjustly incarcerated in Cuba, and has 
begun a hunger strike. According to the Cuban Commission for 
Human Rights and National Reconciliation, there were over 1,000 
arbitrary and politically-motivated arrests in Cuba just 2 
months ago in February, in 1 month over 1,000 arrests. Does 
this sound like paradise?
    If this was happening in any other country in the world, 
the U.S. would be engaged, so why should Cuba be an exception? 
There is no independent press in Cuba. There is complete 
control over the Cuban airwaves and programming on television 
and the press to promote the political propaganda spewed by 
this dictatorship. That is why our State Department, and that 
is why you, Dr. Shah, with USAID democracy programs in Cuba are 
so important to offer the other side of the story, the side 
that promotes American values, God-given values like freedom, 
justice and liberty.
    And I recognize that some in Congress don't think that Cuba 
is of national significance, but they are wrong. And this issue 
goes well beyond Cuba. This issue that we are debating, Mr. 
Chairman, is whether or not USAID should be taking steps to 
promote human rights, the rule of law, and democratic 
governance throughout the world, and I say yes.
    Thank you, Dr. Shah. Thank you, USAID. This is a 
cornerstone of our foreign policy to promote democratic ideals.
    And I am sorry I am out of time. Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Ileana.
    We now go to Gregory Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chair.
    Thank you, Dr. Shah, for your outstanding job in leading 
USAID.
    I am going to try to do quickly, and I guess if you can 
just write them down, four questions and hopefully you will get 
a chance to answer them. If not, then we will talk later. But 
first, you know, USAID plays a significant role in providing 
trade-related assistance, and Congress has appropriated funds 
for this purpose specifically targeting certain countries with 
which we have trade agreements. I am a strong supporter of 
trade capacity building, so I would like to know more about 
what USAID is doing to enhance trade capacity abroad, and what 
else you think Congress can do to help. That is question number 
one.
    Number two, as I indicated I also applaud what the agency 
has done and progress in dispersing aid funding in Haiti. 
However, recently the Congressional Black Caucus was at the 
U.N. and we were told that there could be a serious outbreak of 
cholera, and that there is an cholera emergency in Haiti and so 
I want to know, do you think that is so, is it under control, 
and what we can do there?
    Third, of course, I am also concerned, in regards to 
funding in Colombia, a great ally of ours, but particularly 
there seems to be a real situation in Buenaventura, which is 
Colombia's largest port, and it is the center of its African 
Colombian population where over \1/2\ million inhabitants and 
over 90 percent of them are black, and they are mired in crime 
and poverty, and over 80 percent live below the poverty line; 
30 percent are unemployed; and virtually none have access to 
reliable supplies of electricity, water, even basic road 
infrastructure.
    And so that this violence that is going on, and I know as 
we phase out of Plan Colombia, et cetera, but we want to make 
sure that we are able to address underlying social problems so 
that if there is anything that is being--what we are doing 
there.
    And finally, on the lines of what Ranking Member Eliot 
Engel had asked, and I know he talked especially about 
tuberculosis, but thanks in a huge part to U.S. investments in 
global health, the world has cut by 50 percent the number of 
children who die before age 5 from whether it is pneumonia, or 
malaria, or tuberculosis, the leading killers of children 
worldwide.
    We are on the verge of some exciting breakthroughs and 
lifesaving potential. For example, I know that USAID's has new 
tools to treat and prevent malaria. But these budget controls 
and constraints, et cetera, so I was wondering how you would 
prioritize these health, global health needs to assure that we 
are fulfilling the gaps on current global health needs 
especially as it relates to helping children.
    Mr. Shah. Thank you, Mr. Congressman.
    And I just want to say thank you for your personal 
engagement and leadership on so many of these issues as they 
pertain to so many important parts of the world, and on behalf 
of really the world's most vulnerable.
    With respect to trade assistance and capacity building, the 
Fiscal Year 2015 request includes $170 million for precisely 
that activity. In addition to that, we have our Feed the Future 
Program, which is operational in 19 countries, and really 
focuses on improving the capacity of local businesses to engage 
in, in particular regional agricultural trade.
    And I would just note that we have done careful evaluations 
of programs like the East Africa Trade Hub, that have found 
that our efforts have helped to bring down customs blockages, 
and transshipments across borders, have accelerated the time 
and efficiency in regional trade in particular, and have 
generated $40 of economic value for every $1 we have invested 
in trade capacity building. So what Congress can do is support 
strongly the Development Assistance Account, which is part of 
the budget, and is under a lot of pressure.
    Second, with respect to Haiti, we have a strong community-
based public health program that is focused on all causes of 
child mortality and will include and does already include an 
integrated effort with the U.N. to address cholera. I would 
point out that right now the fatality rate is under 1 percent, 
which meets the standards and goals the U.N. has set, but we 
are working all the time to make sure that cholera is managed.
    And also as we make those investments that the clinics that 
are in rural communities are well stocked and suited to serve 
all children, whatever the cause of disease might be, and that 
building that supply chain and that health systems approach has 
been critical to our efforts to bring down child mortality in 
Haiti which have been successful over the last few years.
    Third, with respect to Afro-Colombian populations in 
Colombia, I personally had a chance to meet with our partners 
and we are trying to work with about 100 businesses, train 
thousands of Afro-Colombian youth, and then get them placed in 
jobs, and that effort has been very successful. We expect to 
place 80 percent of the 4,500 trainees in 2014, and reaching 
10,000 by 2016. And we have a lot of support from business 
leaders there, and it is part of our new approach to public-
private partnerships.
    And finally, with respect to global health I just want to 
say thank you. Your raising that issue is so critical. America 
has a chance right now to lead the charge to end child death, 
and it will take a two-decade commitment from this committee.
    It will take resources, and we have produced a Fiscal Year 
2015 request that has a small increase over the Fiscal Year 
2014 request, and it requires a new concerted business-like 
approach in the 24 countries that account for just over 70 
percent of the 6.6 million kids who die, and we are be 
unveiling an investment plan for those 24 countries with a 
group of other partners later in June. So we thank you for your 
support, and I think this is one area where America can 
accomplish something in partnership with others that is truly 
extraordinary.
    Mr. Meeks. Thank you.
    Chairman Royce. We go now to Mr. Chris Smith, chairman of 
the Subcommittee on Africa and Global Health.
    Mr. Smith. Thank you very much, Mr. Chairman.
    And Dr. Shah, welcome and thank you for your leadership.
    Let me ask you a few questions and I do have some I would 
like to submit for the record. You know, the focus of child 
survival, is an extraordinarily important one.
    The first amendment I offered as a member of this committee 
in 1982, more than 30 years ago, was to reauthorize, expand, 
and double the amount of money for child survival. It passed, 
became law, and we have as a country, been taking the lead 
through various administrations with oral rehydration therapy, 
nutrition, vaccines, and the like, but I am concerned.
    I was part of a roundtable discussion with seven African 
first ladies back in 2010 and it focussed on The First 1,000 
Day of Life From the Moment of Conception, their title, a very 
important title and a very important initiative.
    As we all know, and you know it better than anyone, I 
think, UNICEF estimates that 1 in 4 children worldwide are 
stunted due to lack of adequate nutrition. Children who are 
chronically undernourished as unborn children, up to their 
second birthday, have impaired immune systems that are 
incapable of protecting them against life-threatening ailments 
such as pneumonia and malaria.
    Mothers who are malnourished as girls are 40 percent more 
likely to die during childbirth, experience debilitating 
complications like obstetric fistula, and deliver children who 
perish before reaching the age of 5. We are still waiting for 
the nutrition initiative guidelines, and I know they are in the 
works. The sooner the better. How do we expand the first 1,000 
days of life initiative?
    I was in Guatemala on the day that they signed a compact 
with the U.S. We need to do more of those; not just for 
stunting purposes, but so mother and child will be healthy. So 
if you could talk about that briefly.
    Last year neglected tropical diseases caused the loss of 
534,000 lives. In 2014, $100 million was focused on those 
horrible diseases. I held a hearing on that last year, Dr. 
Peter Hotez testified, I have since read his book, Forgotten 
People Forgetten Diseases. It is exploding all over. 
Schistosomiasis is on a tear, as you know, as well as these 
other horrible diseases, worms make people, particularly women, 
more likely to contract HIV/AIDS. Yet, the 2015 budget cuts it 
to $86.5 million. Maybe there is other money coming in from a 
different spigot but that is a 14-percent cut for something 
that is extraordinarily important.
    On Ebola, you might want to speak to that very quickly, and 
then maybe more for the record. I know five CDC people arrived 
in Guinea. But this is different. Doctors Without Borders says 
this is unprecedented because it is not small, it is not 
isolated, it seems to be expanding.
    And finally, something that I think is an easy lift, I had 
a hearing on this whole emerging problem of infectious-based 
hydrocephalic disease. Dr. Ben Warf from Harvard sat where you 
sit and gave riveting testimony on the need for neurosurgeons 
in Africa and neurologists.
    Cure International has cured over 5,000 kids in Uganda. I 
have introduced a bill but I don't know if it is going to pass 
or not. We have asked you repeatedly. I have asked you if you 
would look into it. We are talking about $3 million per year to 
get us involved with brain health in general, but this one is 
the situation of kids who are dying horrible deaths from water 
on the brain.
    I have seen the kids. I have met the children. I had one of 
the neurosurgeons testify from Africa. They need more of them. 
And that is part of the vision to grow the capacity of 
neurosurgeons in Africa; 1 in 10 million of all of East Africa. 
That is appalling.
    Mr. Shah. Thank you, and I just wanted to thank you for 
your leadership on all of these global health issues, your 
chairmanship of that committee, as well as your work from the 
early 1980s that set a tone for American leadership that I 
think has borne tremendous results. So thank you very, very 
much.
    First, on nutrition, we will be announcing on May 22nd, our 
nutrition policy--this is very important because this is one 
area where the science and the solutions have advanced 
dramatically in the last 5 years and working together with Tony 
Lake, who leads UNICEF, I am part of something called the 
Scaling Up Nutrition or SUN effort, which is designed to take 
the 1,000-days approach, targeting pregnant women and young 
children with supplemental foods that can improve their 
nutritional status so that they are not stunted through the 
rest of their lives, and move it forward in dozens of countries 
that where the countries themselves make the first commitment, 
create the plan, make their own investments, and then we match 
that.
    I think you will see in the policy that we are setting a 
quantitative target for the number of stunted kids. We will 
achieve reduction of child stunting country by country. It will 
be an integrated policy with our Feed the Future Program and 
our larger global health efforts, and it will be the 
operational plan that makes real last year's commitment that I 
made on behalf of the Obama administration at the G8 Summit in 
London to commit nearly $1 billion to nutrition-specific 
investments over the next 3 years.
    With respect to NTDs, we will provide a more detailed 
answer for the record, but I just want to note that under the 
Obama administration, we have scaled up significantly the 
private-sector drug contributions from a number of key partners 
as well as scaled up their contributions to do the community 
training of health workers and deployment of health workers.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Shah. Our approach is now integrated with our child 
survival effort because there is so much overlap in the 
countries of greatest need. And I am confident that while we 
had to make some tough tradeoffs on certain budget lines, 
investing in the systemic approach to child survival, bringing 
these drug donations into an integrative supply chain will help 
us effectively achieve those goals. We could have more detailed 
discussion offline.
    With respect to Ebola, we have been supporting the World 
Health Organization and the CDC in this effort. We are 
supporting them in the regional office in Brazzaville as well 
as in headquarters providing personal protective equipment to 
frontline workers so that they are protected from disease 
themselves, and providing emergency financial support as it is 
needed. I am glad that you raise it because it does have real 
and dire potential and we will continue to work on it.
    And on hydrocephalus, I look forward to working with you a 
bit more on that. I understand why it has been difficult and 
part of the difficulty is that we have been so laser-like 
focused on community health and efforts to reduce diseases that 
cause large scale mortality and morbidity that we haven't had 
the resource flexibility given the extraordinarily tight 
budgets. But if there is something we can do to be helpful I 
would like to make that commitment to you, and I understand the 
data that you are citing and the commitment you have shown and 
I want to thank you for that.
    Chairman Royce. We go to Mr. Albio Sires of New Jersey, the 
ranking member of the Subcommittee on the Western Hemisphere.
    Mr. Sires. Thank you, Mr. Chairman.
    And I would first like to associate myself with the words 
by my colleague Ileana Ros-Lehtinen, and I won't bore you with 
some of my experiences as a young boy.
    What I do want to talk a little bit about is this issue 
with the Tweeter, and I want to know if you still feel that 
USAID is still the appropriate vehicle to carry out these 
programs? And quite frankly, what are the potential negative 
effects on USAID's programs going forward in Cuba and 
elsewhere? Because we have the issue of Venezuela, so----
    Mr. Shah. Well, maybe I could suggest three things. The 
first is, it is clear that this program which is directed and 
mandated by Congress and implemented within pretty tight 
direction, is a part of our portfolio of activities and I do 
want to have a conversation with Congress about how we are 
managing this, about what the long-term approach ought to be.
    I do take note that the GAO report that reviewed our 
management complimented us for making management improvements 
in how the program is executed, and I know that in countries 
all around the world standing up for democratic values, 
improved governance, anticorruption, open civil society, access 
to information, is critical to achieving a broad range of 
goals. That said, we are open to the dialogue you are 
suggesting and I would like to have that.
    I would also like to note right now that, because Alan 
Gross was raised earlier and I just want to be clear about 
something. Alan should be released by the government. He 
shouldn't have been arrested in the first place. He should be 
freed and allowed to return to his family. He is a husband, a 
father. He is facing health issues. He has had a long career of 
providing support to vulnerable populations and the entire U.S. 
Government is working aggressively to secure his release.
    As you know, it is important for us as an administration to 
speak with one voice on this. And I and USAID will continue to 
work with the State Department and under its leadership as they 
lead the effort to secure his release on a diplomatic basis.
    Mr. Sires. My last question is regarding Colombia. At a 
time when they are negotiating with the FARC, we seem to be 
cutting our assistance to Colombia. Do you feel that is a good 
message that we are sending?
    Mr. Shah. Well, we are doing everything we can to maintain 
levels of support throughout the region and throughout the 
world in an environment where the budget is very, very tight. 
We have had a top-line reduction in the 150 account over all. 
We have had a reallocation of resources to make significant 
security investments and implement the findings of the review 
that was conducted on security for State and USAID personnel 
and that is creating significant pressures. We have less 
overseas contingency operation resources in the Fiscal Year 
2015 request. So that is all creating downward pressure.
    In that context I think we are doing our best to prioritize 
Colombia. We recognize how important that is. I visited 
personally, met with the President, with leaders there in the 
private sector and civil society and we are embracing new 
partnerships. We launched a big new effort with Starbucks to 
reach 25,000 small scale coffee farmers and connect them to a 
high value market and these are specifically farmers in post-
FARC affected communities to get the economy going in precisely 
those rural areas where we know that peace is tenuous and we 
want to make sure that it is sustained.
    So we are going to do our best, but this is a difficult 
year budgetwise overall, and I always hope Congress can provide 
greater resources for America's foreign engagements around the 
world, because I believe these investments are the frontline of 
our own security, prosperity, and peace.
    Mr. Sires. I am just concerned that Colombia has been such 
a staunch ally of ours and we have had success working 
together, that at a time when they are negotiating, we are 
cutting, and I don't know that sends the right message.
    But thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Sires.
    We will go now to Mr. Dana Rohrabacher, chairman of the 
Subcommittee on Europe, Eurasia, and Emerging Threats.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Mr. Administrator, you are asking for $20 billion in your 
budget this year; is that right?
    Mr. Shah. It is $20.1 billion.
    Mr. Rohrabacher. $20.1 billion. How much of that is 
disaster assistance and how much of that is, let's say, long-
term country building aid?
    Mr. Shah. Well, sir, it depends a bit on how we count the 
accounts, and one of the things we have tried to do is use 
disaster assistance to support longer term systemic 
developments. In the Philippines, we got the energy system and 
water system back up and running within a few weeks and we did 
that using a combination of disaster funds and general 
assistance.
    But in general our humanitarian accounts are called IDA, 
International Disaster Assistance, Food for Peace and a number 
of other accounts and they probably total maybe $4 billion, $3 
billion to $4 billion in total, depending on which accounts you 
look at.
    Mr. Rohrabacher. 20 percent, 20 percent would be disaster 
assistance of what you are asking for in the budget?
    Mr. Shah. I wouldn't state it that way, but we could come 
back and be precise about the answers. But, yes, it is a 
portion of the $20 billion.
    Mr. Rohrabacher. Let me just say that I believe that the 
American people are not stingy people and we have a heart for 
people who are suffering anywhere in the world, and certainly 
when people go through the natural disasters or even disasters 
that are caused by human action, lending a helping hand to get 
over that emergency is certainly something that none of us--and 
I think the American people would oppose, the American people 
would support--even though we are $500 billion in the red every 
year our overall budget.
    We are spending $500 billion more, so every cent that we 
are spending, much of that is borrowed money from somebody else 
in order to give it to somebody else. But for disaster 
assistance, that is understandable.
    Long term country building aid, however, at a time when we 
are borrowing this money to have our own economy survive 
doesn't make as much sense to me or, I believe, to the American 
people and often it is done in a way that is just absolutely 
atrocious. And I would like to challenge one aspect of that 
today, and that is the money that we plan, and I see that the 
administration is planning to provide, at least you are 
requesting $882 million in aid for Pakistan, and let me just 
note that Pakistan arrested and is still holding and 
brutalizing Dr. Afridi, who helped us identify and locate Osama 
bin Ladin, who was responsibility for slaughtering 3,000 
Americans.
    I consider his arrest and his continued incarceration to be 
a hostile act by Pakistan against the United States, and I 
don't see how anybody else could see it as anything else. But 
worse than that, we have, apparently since 9/11 we have given 
Pakistan over $25 billion, and of that, $17 billion have gone 
to Pakistan's security services, which we know now have been in 
cahoots with terrorists who murder Americans, and even worse, 
perhaps, we have been providing these billions of dollars to 
Pakistan's security services and they are using billions of 
dollars of military equipment that we have been giving them in 
order to conduct a genocidal campaign against the people of 
Balochistan and the Sindhis of Pakistan as well.
    How can we justify providing more aid for a country like 
Pakistan that is using our aid, our military aid to murder in 
great number the people of Balochistan and the repression of 
the Sindhi people?
    Mr. Shah. Sir, let me just come back to our budget. You 
know, we have about $3 billion for natural disasters. The 
majority of the remainder is spent in child survival, HIV/AIDS 
and treatment for AIDS patients, food and hunger, including the 
President's Feed the Future program, our education effort which 
specifically focuses on girls and getting girls basic education 
in early years, and water, and getting water to people who 
otherwise suffer without.
    And for each of those areas we have strategies, goals, 
metrics, we measure outcomes and I believe we can speak about 
the effectiveness both in terms of achieving those objectives 
and creating the basis of stability and opportunity so that we 
live in a more peaceful world because of this effort.
    With respect to Pakistan in particular----
    Mr. Rohrabacher. My only comment on that would be that we 
are borrowing the money from other people in order to achieve 
very fine objectives like that and perhaps in the past, we 
could afford to be benevolent toward other souls that are not 
in an emergency situation, but at least helping some people 
out. We could be benevolent and think borrowing the money is 
okay. Perhaps we have reached a point now that it threatens our 
whole economy. Pardon me for interrupting.
    Mr. Shah. And with respect to Pakistan, the USAID program 
focuses in five sectors. In health, education, agriculture, a 
stabilization program in the Fatah that has built schools and 
community clinics and roads, infrastructure, and energy and 
electricity and in each of those areas, in energy we put 1300 
megawatts on the grid. We believe that those efforts are 
helping to move communities toward a better perspective about 
how to engage in the world; are giving people who otherwise 
wouldn't have opportunity, basic opportunity.
    And our goal, as is our goal for all of our efforts 
everywhere around the world is to succeed at having local 
capacity replace external assistance over time.
    Mr. Rohrabacher. While we are putting our money into those 
wonderful goals, they put their money into murdering their own 
people and helping terrorists kill American troops.
    Thank you very much.
    Chairman Royce. We go now to, Mr. Ted Deutch of Florida, 
ranking member on the Subcommittee on the Middle East.
    Mr. Deutch. Thank you, Mr. Chairman.
    And thank Dr. Shah for being here today. Let me join my 
colleagues in commending you for the work that you have done to 
make USAID more efficient and more transparent over the years 
and the tremendous work that has been done promoting American 
interests around the world.
    United States gives foreign aid not because we like one 
country or another; we do it to ensure stability, equality, 
rule of law, food security, global health, all of the things 
that have a direct impact on our own security and I commend you 
for your efforts.
    I would like to follow up on the exchange that I had last 
year with Assistant Administrator Lindborg, who is doing 
fantastic work in an incredibly challenging region on the 
branding of USAID in Syria. At the time we were seeing a stream 
of press reports that the Syrian people have no idea that the 
United States is the largest provider of aid. There are reports 
that in U.N. refugee camps there were flags of other countries 
on the tents, on the blankets, but hardly any U.S. flags at 
all.
    I understand the risk that branding inside Syria places on 
aid workers and I am sensitive to that. But I do believe it is 
appropriate in refugee camps. Ms. Lindborg gave us a number of 
instances of U.S. branding, including plastic sheeting, 
nutritional biscuits, and also discussed efforts to broadcast 
on Arab media into Syria. I wonder if you could give us an 
update on efforts to let the Syrian people know that we are 
there and that we are helping.
    Mr. Shah. Well, thank you, sir and I think we tried to do 
our best to make sure that the work that we are doing, and the 
partners who are conducting this work, are appreciated for 
America's generosity and for the results they are achieving. We 
have tried to balance that with some of the very specific risks 
that some of our partners, in particular, Syrian American 
doctors and medical facilities, face because we know that they 
have been targeted by the regime.
    So with that, a few examples would be as we are moving to 
providing these voucher and debit cards to refugee families who 
are registered in Jordan and Lebanon and Turkey, those are 
branded. I noted earlier for the chairman that Nancy Lindborg 
just sat with a group of women in Amman who said this 
represents our dignity in an environment where we have lost our 
homes, we have lost our husbands, we have lost our assets, our 
kids are not in school, and thank you to the American people. 
In other context----
    Mr. Deutch. I am sorry; how are they branded?
    Mr. Shah. They have a USAID brand on them, and ``From the 
American People,'' which is part of our branding efforts, which 
has been actually studied and is quite effective and sometimes 
is represented in both the local language and our own.
    Anytime we provide any sort of cash assistance or food 
items or nonfood items, like the plastic sheeting, those things 
are branded and identified. We have expanded over the last few 
years efforts to use broadcasting and other tools to help 
people see what we are doing, and also to learn what the needs 
are so that we are both projecting an American image that is 
more effective from a public diplomacy perspective and, 
frankly, gathering information that helps us improve our 
response, identify communities in need or changes in that 
context.
    And in general, I think it is now recognized that America 
provides a lot of critically needed and life saving 
humanitarian assistance in Syria and certainly in the 
communities I have been with in Amman, in Lebanon, in Turkey.
    Mr. Deutch. Great, I appreciate that. And I hope the issue 
that we heard about last time, that there are tents that 
clearly display flags of the other countries who are helping to 
a much less extent than the United States, that those will now 
include American flags as well.
    Let me move to one other issue in my remaining time. I want 
to commend the good work of the American Schools and Hospitals 
Abroad program which has helped American organizations start 
and maintain programs around the world. In the past few years 
the administration has usually recommended a level of around 
$15 million in their budget. Congress is appropriated $23 
million. The Fiscal Year 2015 budget request for this program 
has been reduced again and it would be helpful if you could 
just walk us through the reasoning for this continued reduction 
in what is a successful program, at least to my understanding.
    Mr. Shah. Thank you. And, again, we really respect the 
American Schools and Hospitals Abroad effort. ASHA has since 
1961 provided almost $1 billion in health and education 
assistance to more than 300 organizations, continues to be a 
critical vehicle for us, and we hosted their international 
conference just a week or two ago here in Washington, DC. We 
know we reach more than 10,000 students and health 
professionals every year with this effort.
    We have to make tough budget determinations, especially 
because of the dire humanitarian consequences of what is 
happening around the world right now and the downward pressure 
on the overall account that comes from both the budget 
agreement, the control levels, and the efforts to make the 
security investments to implement the PRB report.
    So this is one of those tough trade-offs. We recognize how 
important this effort is and I think these are important 
efforts. We just have had to make very, very difficult 
decisions. This is a program that I respect and value and I 
think over time we will absolutely sustain.
    Mr. Deutch. I thank you.
    Mr. Chairman, I would just point out that, Doctor, I 
appreciate the trade-offs that have to be made, but I would 
just ask if when you consider the merits of this program 
relative to the relatively small investment that is being made 
in it, that that analysis ultimately be a determining factor as 
you go forward.
    And I yield back. Mr. Chairman.
    Chairman Royce. Thank you. We are going to Mr. Steve Chabot 
of Ohio, chairman of the Subcommittee on Asia and the Pacific.
    Mr. Chabot. Thank you, Mr. Chairman.
    And as we continue to see government spending grow across 
the board, it is critical that we ensure that taxpayers are not 
being wasted on ineffective assistance programs or end up in 
the hands of corrupt governments or any other organization like 
that.
    So Administrator Shah, I have a few questions. In February 
I had the opportunity to visit the Philippines with Chairman 
Royce and a number of other members of this committee in order 
to assess the devastation which was caused by Typhoon Haiyan. 
While there we learned that USAID was using geo locators to 
track precisely where assistance is being delivered and by 
whom. It was indicated that these locators were being used in 
order to help reduce the overlap of aid.
    How effective has this method been in the typhoon-hit areas 
and at the same time, has this technology been used in other 
countries and if so where? What are the cost benefits of 
implementing this type of tracking method?
    Mr. Shah. Thank you, sir. I don't have the data to speak to 
the cost-benefit of that specific strategy at this point. But 
one of the efforts we've----
    Mr. Chabot. Could you provide that when it is available?
    Mr. Shah. Absolutely. One of the things we have done over 
the last few years is really work hard to improve our 
coordination and our lead role in coordination with the U.N. 
and with a range of other partners. That is actually why I went 
out to co-chair with Secretary Hagel the ASEAN defense 
ministers' ministerial and humanitarian assistance, because 
often coordination is about coordinating with civilian and 
military actors, as we saw during Typhoon Haiyan. And this is 
one technology; we have used others as well to help make sure 
that we are kind of coordinated and swift and aggressive in how 
we respond to things, and that we have data back so that we 
know who is receiving aid and where there are pockets of need 
in the midst of a crisis where data is often difficult to come 
by.
    Mr. Chabot. Thank you, sir. If you could provide that cost-
benefit information, I would appreciate that.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Chabot. My next question, the Asia-Pacific 
Subcommittee, which I have the honor to chair, did quite a bit 
of work regarding Cambodia last year in the run-up to elections 
which not surprisingly we believe were both rigged and overall 
unfair elections.
    At the time, I introduced legislation calling for more 
accountable foreign assistance for Cambodia. That legislation 
stated that if the elections were not deemed free or fair, 
Cambodia should be ineligible for direct U.S. assistance to 
support its military and police, and that the State Department 
and USAID should jointly reassess and reduce, if appropriate, 
assistance for Cambodia.
    The Consolidated Appropriations Act of 2014 contained 
restrictions on aid to Cambodia dealing with human rights 
situation which has not improved.
    Has USAID begun the process of reassessing assistance to 
Cambodia? And also would you please describe what U.S. 
assistance in Cambodia has actually achieved, in which areas 
aid has been least effective, and how have the actions of Hun 
Sen's regime impacted the effectiveness of USAID and the 
foreign assistance from other countries as well?; if you know.
    Mr. Shah. Thank you, sir. On the Asia-Pacific in general, 
this has been as part of the President's direction to pivot to 
the region. We have, despite all the difficult trade-offs we 
have made, we have had modest increases in budgets through that 
region and in aggregate for Asia and the Pacific.
    With respect to Cambodia in particular, the strategic 
direction we have taken and we appreciate the guidance that you 
have provided, has been to increase support for democracy 
programs, for civil society, for efforts to improve governance. 
The Fiscal Year 2015 request includes more than $12 million for 
democracy, governance, civil society, and transparency efforts 
inside of Cambodia.
    Mr. Chabot. How much resistance from Hun Sen's regime do 
you get on that sort of assistance?
    Mr. Shah. Well, you know, we support civil society based on 
a set of principles that we believe, as part of partnering with 
America, we should be engaging with all parts of society and 
not exclusively just the government. These are open programs. 
They are notified as we have discussed and we get from time to 
time some degree of comment. But nevertheless we have support 
for civil society as one of our core values in our programs 
around the world.
    I will say with respect to effectiveness, these efforts 
have in the past directly engaged over 22,000 young Cambodians 
and indirectly reached tens of thousands more, and they do 
provide support for them to document what happened during 
elections, to mobilize young people, and stand up for a set of 
values about open society and we will continue to provide that 
support, should Congress provide the resources.
    Mr. Chabot. Thank you.
    My time is expired.
    Chairman Royce. Thank you.
    We go to Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Dr. Shah, for joining us today. And I want to 
begin by complimenting you on your powerful and very moving 
words at the national prayer breakfast. You obviously were not 
instructed to upstage your boss, but you did, and I thank you 
for that and thank you to you and your excellent team at USAID 
for the work that you are doing in particularly challenging 
times and often in the face of diminishing resources.
    We were also very proud to welcome you to Rhode Island and 
I want to thank you for your visit last year to Edesia, the 
producer of Plumpy'Nut and related nutritional products. And I 
am very pleased that you were able to see firsthand how Edesia 
is using innovations to treat and prevent malnutrition for the 
world's most vulnerable children and creating good jobs in my 
home state to do it.
    And they are currently drawing up plans for a larger 
facility in Rhode Island that they hope can help them reach 
over 2 million children each year worldwide. And I know that 
they would welcome your return to Rhode Island to help them cut 
the ribbon in that facility next year.
    I want to acknowledge also USAID's efforts to ensure 
inclusive development, especially for the protection of human 
rights of LGBT individuals, and I know that the recently 
appointed senior LBGT coordinator for USAID started 2 weeks ago 
and I look forward to hearing about the great things that you 
will do and I look forward to working with him.
    As you know, this is an especially important issue right 
now as Uganda and Nigeria have both recently passed severely 
discriminatory anti-LGBT laws which could significantly hamper 
our public health efforts. Just this past week there were press 
reports of a police raid on a U.S.-funded HIV project and 
reaching key communities is a critical component, obviously, to 
reducing the transmission of HIV and creating an AIDS-free 
generation worldwide.
    So I have three questions. Which I would like to go through 
quickly and then give you an opportunity to answer them. First 
is would you talk a little bit about what USAID is doing to 
ensure that LGBT individuals continue to have access to 
PEPFAR's lifesaving interventions and medications, as well as 
other global health programs.
    Second, in 2010, USAID launched a procurement reform 
initiative that promised to increase the number of contract 
awards to small businesses NGOs, to streamline procurement 
processes, to provide more funds directly to host countries, 
and to ensure that the products being purchased are of the 
highest quality. Could you talk about the progress that has 
been made on these initiatives.
    And, finally, how does USAID work with intergovernmental 
organizations and NGOs worldwide to combat the horrific, very 
serious problem of gender-based violence, particularly against 
very young children and girls?
    Mr. Shah. Well, thank you, Congressman for your unwavering 
and incredible support. I love remembering what those employees 
at Edesia told me, which was upon learning that their work and 
their products were reaching families throughout Syria and 
helping women and children, they were just so proud to be part 
of America's engagement in the world. And those are great new 
jobs in that community. So thank you for having me out there.
    With respect to Uganda, I very much appreciate your 
comments. These retrogressive laws that have been passed have a 
chilling effect on the LGBT community access to care and quite 
simply put, we are not able to achieve our goals of an AIDS-
free generation if they are allowed to hamper the effort for 
our program beneficiaries to receive services in an environment 
that is safe, that is open, that respects their dignity, and 
that understands that this is a critical point of access to 
critically needed and lifesaving health care.
    So we are currently undergoing a review of all of our 
Uganda assistance programs and how to best engage. We have made 
some adaptations already to programs based on particular 
organizations and their behavior with respect to all of this. I 
have talked to my counterparts in the UK and other European 
capitals so we have a coordinated response that carries more 
effort, force as we talk through how we are going to deal with 
the consequences of this.
    But our commitment is to make sure that we are able to 
reach the LGBT community in Uganda with basic services for 
health and HIV/AIDS and that we are you know, working to, as 
Secretary Kerry has noted, you know, work to highlight how 
regressive and repressive this law is.
    With respect to small businesses and NGOs, you know I am 
proud to report that over 4 years we have nearly doubled our 
commitment to new partners, and NGOs in particular. The 
percentage of funds used to be 9 percent going to those 
partners and is now 18 percent.
    With respect to small businesses, we get a score every 
year, a grade, and when I started it was an F, and then it went 
to an A, and came down to a B, and we are hopeful for another 
A. But I will knock on wood and not commit to that until the 
scoring comes out this year. The reason we pursue this effort 
is we believe that we should have a diversified base of 
partners, that all of our partners should have access to the 
opportunity to take this mission forward, and that small 
businesses, NGOs, civil society, often can add a lot of value 
at a very efficient price point and so we want to engage that 
community effectively.
    And finally on NGOs and gender-based violence, yeah, I was 
in eastern Congo a few months ago and the use of rape as a 
commonplace practice of conflict and war in that environment is 
just devastating. To interact with and to meet young girls and 
young boys who have been a part of this is just extraordinarily 
difficult.
    I am very proud of our teams that have not just had 
targeted gender-based violence programs to reach survivors and 
to protect them, to make sure they get fistula repair 
operations and other critically needed and specialized services 
and this is happening in difficult contexts.
    But also to look at the broad range of what we do on 
humanitarian efforts, on agriculture programs, on health 
programs, and ensure that we are focusing on reaching girls 
protecting girls, giving girls an opportunity. Because we know 
that in many parts of the world doing that will change the 
character and sufficiency and prosperity of society over time, 
and every bit of effort we can make, which while by definition 
is not enough, I think is an important manifestation of 
America's values.
    Mr. Cicilline. Thank you.
    I yield back, Mr. Chairman.
    Chairman Royce. We go now to Judge Ted Poe, chairman of the 
Subcommittee on Terrorism, Nonproliferation, and Trade.
    Mr. Poe. Thank you, Mr. Chairman.
    Dr. Shah, it is good to see you again. Thank you for what 
you do.
    I want to talk about money, taxpayer money that is spent 
through the State Department specifically, then through USAID. 
When Americans think of foreign aid they think of all the money 
that the State Department spends, but there is a State 
Department budget and then there is that foreign assistance 
money that goes to foreign countries. But let's start with the 
State Department and why so many, including me, people are 
frustrated about American money.
    The State Department, I understand, has an arts division 
that buys the art for its Embassies. This is a $1 million stack 
of bricks in my opinion, I know nothing about art, that is at 
the London Embassy that taxpayers spent. The State Department 
paid for it and we spent on ourselves at the London Embassy. It 
is $1 million, to me that is quite a bit of money.
    Recently the State Department has decided to purchase this 
camel and send it to Islamabad and put it in the American 
Embassy in Islamabad. This is about $400,000 and the State 
Department said, well, it could have been more, but we got a 
discount. We got the camel, the stack of bricks, I understand 
that is not foreign assistance but that is money that goes to 
the State Department and I am a little concerned that we would 
spend American money that way.
    If we want art in our Embassies, why don't we get school 
kids to paint pictures that we could put it in all our 
Embassies throughout the world? I think school kids could do 
that, it would be better. Anyway.
    So, let's narrow it down to foreign assistance. Recently 
the Associated Press has reported that the State Department 
cannot account for about $6 billion over a period of years. 
Some of that money is foreign assistance; some of it is not 
foreign assistance. It would be security assistance. But for 
the record I would like to put the Associated Press article 
into the record, Mr. Chairman.
    Chairman Royce. Without objection.
    Mr. Poe. I am not sure where all the money came from, or 
what accounts, but it is $6 billion that the State Department 
says we just can't find it, which is a little concerning as 
well. That is according to the report that the Office of 
Inspector General did in the State Department and that 
frustrates me as a Member of Congress. It frustrates the 
citizens too. Six billion dollars, we are talking about real 
money even for the Federal Government. Which leads me to the 
comment I would like to get from you.
    Accountability is to me very important. How we spend 
taxpayer money. Representative Connolly and myself have 
introduced legislation, the Foreign Aid Transparency and 
Accountability Act, which basically says when we give foreign 
assistance we need to be able to measure if it is working or 
not working. Programs that work, let's maybe keep them. 
Programs that are not working, let's get rid of them. And, as 
you know, many nongovernment organizations support the 
legislation. Even organizations that would sort of be audited 
by the State Department or by USAID support a review, an audit 
is what I call it, of foreign assistance overseas.
    I personally think that would bring some credibility to how 
we spend our money. Maybe we shouldn't be buying art. I know 
that is not foreign assistance. You commented in the past on 
this specific piece of legislation. So from your point of view 
as the Administrator of USAID talking about specific foreign 
assistance, not talking about other State Department money, do 
you think if we eliminate the security portion of it and just 
evaluate at this time foreign assistance, security, that is a 
different issue, weigh in on that for me if you would and then 
I have one other question.
    Mr. Shah. Well, sir, as we have discussed before, and I 
very much appreciate your comments on evaluation and 
monitoring, we have taken the precepts that underlie the 
legislation and actually implemented them. So over the last 4 
years we have put out a new evaluation policy, we have trained 
460 of our staff, we have increased the number of evaluations 
that we do and publish every year from about 73 to, in this 
last year, 234 and the quality of those evaluations which we 
now track and measure has also gone up significantly to be 
consistent with our new policy.
    Mr. Poe. I am running out of time, Dr. Shah. Excuse me. And 
I have some questions that I will submit for the record and I 
know that you always respond, and I appreciate that.
    And one last question, if I may, Mr. Chairman. I understand 
that we give foreign assistance to Armenia and Belarus. Those 
two countries specifically voted against the United States in 
the U.N. They agreed with the basically invasion--in my 
opinion--of the Russians in the Crimea. Maybe we should 
reevaluate giving money to countries that support Russian 
invasion. Just a thought.
    And I will submit the questions, Mr. Chairman, for the 
record for Dr. Shah.
    Chairman Royce. We go now to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman.
    And thank you Dr. Shah for your testimony. Good to see you 
here again.
    Also thank you for your leadership in transitioning USAID 
from just being a donor organization to one that is actually a 
capacity building organization. India is a good example of a 
country that we built capacity and now they can actually donate 
and help develop countries in Africa and other places.
    As has been mentioned before, you know when we look at our 
overall budget, we are spending less than 1 percent of the 
Federal budget on foreign aid so we should keep that in 
perspective. We also know that these are remarkably important 
investments that not only extend the goodwill of the American 
people globally, but also have dramatic impact on health and 
relief of human suffering and is a reflection of our values as 
Americans.
    I specifically want to focus in on the $8.1 billion USAID 
and State Department allocate for the global health program. In 
particular the $538 million in family planning and reproductive 
health.
    As you already mentioned, USAID has a major focus on 
maternal and child health in 24 countries where more than 70 
percent of the maternal-child deaths occur. You know quoting 
another Senator, former Senate Bill Frist, he talked about 
family planning as being a key, often hidden engine for 
additional global health achievements. He also noted that when 
women space their pregnancies out by more than 3 years through 
the use of voluntary family planning, they are more likely to 
survive pregnancy and childbirth. Their children are more than 
twice as likely to survive infancy and as doctors, we also know 
that pregnancy spacing is incredibly important.
    Research has shown that addressing the current unmet need 
for modern contraception, if we were able to meet that need 
that we prevent 79,000 maternal deaths and over 1.1 million 
infant deaths.
    Now, from your perspective, how is USAID ensuring that we 
better support effective family planning tools to advance our 
shared goals of ending preventative child and maternal deaths.
    Mr. Shah. Well, thank you, Congressman. Thank you for your 
leadership on these issues and global health in particular.
    We do have a significant proposed investment in family 
planning and voluntary family planning. This has been a part of 
America's global health and foreign assistance legacy for now 
more than four decades and it has been extraordinarily 
successful in taking up the contraceptive prevalence rate and 
bringing down the total fertility rate in country after 
country. One of the biggest successes of the program is most of 
the programs transition to country ownership, management, 
funding, and implementation after that capacity is built, as 
you point out, over years.
    President Obama has been very committed to this issue, 
increasing budgets relative to the prior administration 
significantly and we have a very careful process to make sure 
that everything we do follows the very strict letters of the 
law.
    I think there are three things I would highlight as you 
point out. One is, this is one of the most effective ways to 
save women's lives during child birth, and the most cost-
effective way to do that.
    The second is we don't achieve the end of preventable child 
death unless we make these investments.
    And the third is the demographic shift that comes with 
bringing down child death and bringing up voluntary family 
planning together, is what gives countries the capacity to be 
more stabilized from a population perspective and to then grow 
their economy. All of these things have been proven, which is 
why we have engaged in this administration with the private 
sector, with Australia, the UK, with the Bill and Melinda Gates 
Foundation, to get others to do more with us in genuine 
partnership.
    Mr. Bera. Great, you know playing off of the hearing that 
we had last week about empowering girls and women and 
particularly on the education fronts, we know, as we are prone 
to say in our own country domestically, when women succeed, 
society succeeds. And in the remaining few seconds I would like 
you to comment on some of the strategies that USAID is engaging 
in.
    Mr. Shah. Well, thank you, and I think we put out a new 
women and gender policy a few years ago. We now really take a 
pretty aggressive approach. We have a new gender coordinator 
coming on board and we have really restructured the way we do 
this work, so that we support the National Action Plan on 
Women, Peace, and Security and critically important in all of 
our major programs we try to measure whether the benefits of 
our efforts are reaching women.
    So in the Feed the Future program, which works to reach 7 
million farm households, we actually measure whether the income 
improvements that come from better agricultural production on 
the farm are going to women? And the reason that is important 
is they do most of the work and you know that $1 of additional 
income with a woman in that context is far more effective at 
getting kids into school, reducing child death rates, and 
improving community development outcomes than if that same 
dollar goes to a male.
    So, by measuring and reporting on those trends we have 
actually helped to lead on this issue, not just for own foreign 
assistance but in the community of our partner country 
agencies.
    Mr. Chabot [presiding]. The gentleman's time has expired.
    The gentleman from Illinois, Mr. Kinzinger, is recognized 
for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chair.
    Mr. Administrator, thank you for being here and thank you 
for serving your country in a difficult capacity and a 
difficult time in world history, I believe. So I appreciate 
having you here.
    I want to touch on two different areas: Iraq and 
Afghanistan. When America withdrew its forces from Iraq after 
2011, I think USAID and the State Department was kind of left 
scrambling. I will say I have been critical of the 
administration. I thought the withdraw from Iraq was probably 
one of the biggest blunders in a decade, in foreign policy. But 
that said, you were left with kind of a presence in which you 
had to figure out okay, with no U.S. troops here how are we 
going to go forward?
    It seems like since that kind of opening day, opening salvo 
of a no U.S. military presence, USAID and the State have been 
kind of scaling back its presence and figuring out the right 
size there. What lessons have we learned in Iraq that can be 
applied to Afghanistan as we are going ahead and looking at the 
post 2014, and what is the number one lesson that you plan to 
apply to that?
    Mr. Shah. Well, thank you. I think there are three. One is 
we have to review our programs continuously to ensure that they 
are sustainable, given the political context and the security 
situation and the underlying economics. A second is we have to 
protect our people. So we have to make sure we can get eyes on 
projects, that we are using third party monitors, that we are 
using in some cases satellite data to look at crop yields and 
other ways to track outcomes. But our people need to be able to 
evaluate programs and also be safe. And the third is the cost 
of operations goes up.
    So I would just say with respect to Iraq one of the things 
we very much focused on as we take down our presence and our 
investment, which we have done, is that we transition the 
responsibility of paying for programs to the Iraqis and there 
has been an extraordinarily successful set of transitions there 
where our major programs have been picked up and continued with 
Iraqi local resources.
    I think in Afghanistan, we are implementing those lessons 
and we recognize that for the 2 to 3 percent of the cost of the 
overall war that was USAID's component of the investment, we 
have 8 million kids in school, 3 million girls; we have the 
fastest reduction in child mortality, maternal death; the 
longest increase in human longevity anywhere in the world over 
the last decade; and the improvements in customs revenue 
collection at the border posts. All of those--sustaining those 
gains is critical to capturing the promise of peaceful and more 
secure Afghanistan for the future. So that is what our focus is 
right now.
    Mr. Kinzinger. I would like to say too that I recently 
visited South Waziristan and Pakistan and was able to see some 
of the USAID's projects in terms of completion of dams, road 
building, and although there are huge problems in Pakistan and 
we all know this, and significant problems that the Pakistani 
Government needs to confront, we have seen some success. 
Whereas when you bring economic prosperity to the people and 
give them an opportunity to sell their fruits and goods, they 
turn away from terrorism and turn away from extremism and turn 
toward peace, and I think that is ultimately the key here.
    What is the current USAID footprint in Iraq and are your 
personnel presently able to go outside the wire and visit 
projects? And what do they do in terms of security and stuff 
like that and how would that apply to Afghanistan?
    Mr. Shah. In Iraq, it is diminishing, and that is by 
design. The goal to transition the programs to local investment 
and ownership and we are on the path to do that successfully. 
In Afghanistan it is different because in Afghanistan we have 
large scale programs and investments. The Fiscal Year 2015 
budget calls for sustaining at a slightly reduced level over 
historic terms those investments.
    And we are really working with the community of 
international partners according to something called the Tokyo 
Mutual Accountability Framework so if the Afghan Government is 
making the right choices; free and fair elections, efforts to 
fight corruption, efforts to replace foreign assistance with 
revenues that are collected and transparently provided, we will 
continue to work with the international community to make sure 
they have the resources to sustain these important gains.
    And that is important for women and girls in Afghanistan. 
That is important for rural communities that have been part of 
the National Solidarity Program that has been evaluated by 
Harvard and MIT and proven to be successful, and it is 
important for continuing to build civil society and civilian 
capacity in the Afghan Government.
    So, we are encouraged by these efforts. We know it is going 
to be very, very tough and our people in that context as you 
know, sir, take tremendous risks every day to carry out that 
mission.
    Mr. Kinzinger. Yeah, and again, in my travel I have seen a 
lot of what your organization does in terms of helping to 
rescue women and girls who are in a situations that none of us 
could ever ponder. Stuff that you thought existed 100 years ago 
or 200 years ago, still exists in parts of the world today.
    So, again, thank you for your hard work. I know you know, 
we are going to look at the budget. We always do that in a very 
big way. But I think your organization is a force multiplier 
and helps us prevent going to war in many cases.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from the Commonwealth of Virginia Mr. 
Connolly is recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome, Mr. Shah. Can you bring us up to date? We 
asked questions the last time you were here about the 
relationship of USAID to sort of the proliferation of other 
USAID-like entities in the United States Government.
    The Millennium Challenge, the African AIDS Initiative, and 
so forth, all of which seem to have the effect of diluting the 
centrality of USAID as our lead development agency. That is of 
concern to a number of us on this committee.
    A concern I shared with you last time you were here, can 
you bring us up to date on how that is being coordinated and 
perhaps reassure us that that doesn't in fact dilute USAID's 
role as the lead development agency in the United States 
Government.
    Mr. Shah. Well, thank you, sir. And thank you for your 
leadership on development and foreign assistance and how we 
project our values around the world.
    Mr. Connolly. Does that mean you are endorsing my aid 
reform bill?
    Mr. Shah. We have talked about this and I value the 
underlying concepts of that bill.
    I will say that over the past, President Obama started his 
administration by issuing a policy directive and said that we 
were going to commit ourselves to rebuilding USAID to be the 
world's premier development institution. Time will test whether 
we have done that, but I believe we are strongly on that path.
    We have rebuilt our policy, reclaimed and designed our 
budget. We take accountability for our decisions. We have shut 
down 34 percent of all of our programs around the world to 
create the space to invest in food security and child survival 
and education and water in a more results oriented way, and did 
all of that during a period of relative budget neutrality.
    We measure and monitor our programs and we lead in many 
international fora including next week's big global development 
conference in Mexico. Our ideas on a new model of development 
that bring private sector, civil society, public sector 
together to tackle really big challenges, are leading the 
sector in spades.
    So I feel confident that we have rebuilt USAID's 
capabilities, including with your support the hiring of nearly 
1,100 new staff that has given us all kinds of new technical 
capacity that is deployed around the world.
    With respect to MCC and PEPFAR, yes, we work in close 
partnership, and I feel that partnership is a lot better now 
than it was when I started and that is it true whether we are 
working in Liberia with MCC to figure out who does what and to 
get our timing and sequencing right. It is true whether we are 
assessing each other's programs and sharing information and it 
is true with PEPFAR where we have a joint goal to create an 
AIDS-free generation and to bring science and technology to the 
front lines of that fight given that USAID implements about 60 
percent of PEPFAR.
    So we are doing our best within the institutional 
constraints that are already defined and exist to ensure that 
that we operate as one team, we deliver one set of 
extraordinary results. We are clear about our leadership around 
the world and we project that. This is an important way for 
America and the Obama administration, as it was for the Bush 
administration before, to project leadership, to protect the 
world's most vulnerable in extreme poverty.
    Mr. Connolly. I appreciate that and it sounds like 
everything is sunny in the neighborhood. But when you ask 
yourself what could go wrong, Mr. Shah, when you don't have 
clear organizational lines of responsibility in the org chart, 
you know, maybe you and your colleagues get along just fine but 
maybe the next team won't.
    And frankly, from the United States Government's point of 
view it seems to me it ought not to be up to only the 
relational capacity of those who hold these jobs. There ought 
to be clear lines of responsibility and authority and who 
reports to whom. Now in some cases maybe a dotted-line 
responsibility is what we are going to have to settle for.
    I asked you a year ago whether you would meet with us and 
work with us on the reform bill that our former chairman, 
Howard Berman, and I had worked on. I haven't heard anything 
from your agency. Not a word in a year and the intent of the 
legislation is to be helpful and to try to streamline and to 
remove the encrusted barnacles that have built up in 50 years 
and it seems to me not an unreasonable proposition that we 
actually need a new and a streamlined legislative framework for 
moving forward that takes cognizance of what you are doing and 
the changes in the world in the last half century.
    So I re-invite you to please come and sit down with us and 
go over that legislation so that we can move forward together.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Connolly. Would the chairman allow Mr. Shah to respond?
    Mr. Chabot. Yes.
    Mr. Shah. Let me just say I endorse the concept. We do need 
a new framework and I think enough has changed in how we all 
operate, especially embracing science and technology, private 
partnership, innovation, the world out there has changed 
dramatically. It used to be that our agencies were the bulk of 
investment going into poor countries. Now we are the minority 
of investment.
    So if we are not structured to partner well with the 
private sector with other sources of local revenue and 
resources, we won't succeed in the mission to end extreme 
poverty to keep our country safe and secure and to that end, I 
will personally sit with you, I will be eager to do that.
    I know that my colleagues at MCC and PEPFAR would be eager 
to have that conversation and we are also realistic about the 
timelines it takes to produce long term outcomes on that basis. 
But we value your leadership and I and my colleagues will come 
and speak with you about it.
    Mr. Connolly. I very much appreciate that.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you, the gentleman's time has expired.
    The gentleman from North Carolina, Mr. Holding, Number 2, 
is recognized for 5 minutes.
    Mr. Holding. Dr. Shah, your request for the Office of 
Transition Initiatives OTI, has around a 17-percent increase. I 
looked at OTI's Web site and it states that their mission is 
to: ``Help local partners advance peace and democracy in 
priority conflict prone countries. Seizing critical windows of 
opportunity, OTI works on the ground to provide fast, flexible, 
short-term assistance targeted at key transition needs.''
    Now, if you go to the State Department's relatively new 
Bureau of Conflict and Stabilization Operations, CSO, it states 
that they: ``Offer rapid locally grounded conflict analysis in 
countries where massive violence or instability looms'' and, 
``CSO helps develop prioritizes strategies to address high risk 
periods such as election or political transitions.'' And CSO 
also: ``Moves swiftly to mobilize resources and civil response 
mechanisms for conflicts revision and response.''
    The State Department's Inspector General just last month 
issued from what I understand to be one of their most critical 
reports ever issued citing problems of mission management, 
staffing, accountability, and more, and most importantly in 
this report, it states that USAID's Office of Transition 
Initiative has a mission statement almost identical to that of 
CSO and from a comparison of the Web sites of OTI and CSO, it 
appears that both organizations are currently working in Burma, 
Syria, Kenya, and Honduras.
    So, it would seem that there is a lot of overlap between 
these two offices, and even when we consider the fact that they 
both work in very difficult and unstable situations. So I am 
wondering if you could lay out the differences between OTI and 
CSO and help us determine whether there is a duplication of 
efforts going on here and if there is a duplication, what 
warrants that?
    Mr. Shah. Well, thank you, sir, and I would be happy to 
have my team also follow-up in more detail across the range of 
programs.
    If you just look at Syria, for example, OTI is helping to 
support the governance needs of some of the local coordinating 
councils under the SOC, the Sunni Opposition Council, and they 
provide support on an as-needed basis that is civilian support, 
efforts to help them stand up local governance.
    I saw this firsthand in Haiti where after the earthquake 
when the government was in a really difficult situation years 
ago, OTI helped the office of the President set up----
    Mr. Holding. Sure. I appreciate the work that they do.
    Mr. Shah. And those types of efforts are not very large and 
are time bound and play a unique role.
    In Syria, CSO does things in a coordinated manner but a 
different set of things, and I think they have worked hard to 
make sure that they are not duplicating but are coordinating. 
And in fact the USAID guy----
    Mr. Holding. Are you in the process of doing, you know, any 
study, or interagency review to look for overlaps between the 
two organizations? Is that something going on, on an official 
basis?
    Mr. Shah. Well, we will be launching soon, the QDDR, and 
that would be a vehicle for doing that. So I will look, and I 
know we did that last time, and during the QDDR, so----
    Mr. Holding. Well, that is something that you commit to do, 
look for overlaps.
    Mr. Shah. Yes.
    Mr. Holding. And one last question before I run out of 
time. Is USAID, do they have any programs currently going on in 
Russia?
    Mr. Shah. Well, USAID left Russia and so, no, we don't 
currently run programs in Russia. But our partners in the State 
Department continue to partner with, and engage with, a broad 
range of civil society in that context. But I can't speak to 
the details of that. But I know USAID is not currently present 
there.
    Mr. Holding. All right, thank you. Mr. Chairman, I yield 
back.
    Mr. Chabot. The gentleman yields back.
    The gentleman from California, Mr. Sherman, who is the 
ranking member of the Subcommittee on Terrorism, 
Nonproliferation, and Trade is recognized for 5 minutes.
    Mr. Sherman. I focus a lot on national security, and there 
is no greater concern than Pakistan, and within Pakistan, I 
tend to focus on the Province of Sindh. In Sindh, especially 
rural areas, you have historically marginalized area of 
Pakistan. USAID has done a number of projects in the Sindh 
Province including building schools. I want to thank you for 
that effort.
    I want to push for more. I hope that--well, please provide 
for the record, a comprehensive list of your current projects 
in Sindh, either ongoing, or completed over the last year or 
two, and please include in that, a discussion of whether we can 
find women teachers to teach girls, whether there are enough 
qualified women teachers and whether they are being hired.
    The far area of Sindh, especially if you could comment 
about how we have dealt with the recent famine and drought 
there, and if Sindh is marginalized by Pakistan, the Hindus who 
live in Thar, are even more marginalized.
    According to human rights activists, the Hindus there, and 
then elsewhere in Sindh, live in fear of forced conversion or 
are being pushed off their land if they don't convert.
    Is USAID and Pakistan cognizant of and sensitive to the 
ethnic and religious minorities of Pakistan and the vulnerable 
populations and do we focus our effort on those vulnerable 
populations?
    Mr. Shah. Well, thank you, Congressman, and thank you for 
your support for our efforts in Pakistan and all around the 
world.
    I think the Sindh Pakistan program is a good example of 
what we can get done when we take a results-orient approach, 
and a few years ago we restructured our work there to focus on 
health, education, and power and in education as you noted. We 
are rehabilitating and building out 120 schools. Our target is 
to ensure that 750,000 kids, mostly girls, are learning to read 
at grade level in early grades. We will conduct a performance 
testing of those kids to ensure that that is, in fact, the 
case.
    We have rehabilitated power plants such as the Jamshoro 
Power Plant and others and my team can followup with details, 
but that has helped produce 270 megawatts of energy at a time 
when that is the core constraint to growth and we have 
supported more than 200 healthcare workers to provide basic 
healthcare services to 25,000 women across 14 districts in 
Sindh. And that has been one of our most effective ways to help 
reduce child death and promote maternal survival during 
childbirth. So these programs when well run are effective.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Shah. I am not as aware of our specific efforts in 
Thar, and with minority communities, so I appreciate your 
raising that. I will look into that specifically and ask our 
team to come back to you.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Sherman. And I want to thank you for your 
responsiveness. I have been focused on Sindh for several years 
and to have an Administrator that up-to-date with everything--
first of all, doing all of the good things, and then to have an 
Administrator that knowledgeable, is a good result.
    As to aid to Nagorno-Karabakh, I hope you provide for the 
record the aid that is being spent in Armenia, but also in 
Nagorno-Karabakh, for Fiscal Year 2014, and particularly, focus 
on what has been done to reduce land mine explosions, and 
provide clean water to villages.
    We have seen the tragedies in Syria. I know that Eliot 
Engel, our ranking member, has already focused on you trying to 
reach those very vulnerable populations. Obviously, Jordan and 
Lebanonhave absorbed the bulk of the international displaced 
persons, but a lot have gone to Armenia, and I wonder whether 
you were providing aid through the Government of Armenia to 
handle the refugees that have gone there?
    And since my time is about to expire, I will ask you to 
respond to that for the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Sherman. I finally want to focus on the Javakheti 
region of Georgia. Over the last 20 years, we have provided 
over $1.5 billion of assistance to Georgia. One of the poorest 
regions of Georgia is Javakheti, and some 28 of us have signed 
a letter urging that with U.S. assistance to Georgia, at least 
a good percentage of that go to the Javakheti region, and I 
will add, since my time is expired. I will ask you to respond 
to that for the record, unless the chairman wants to indulge 
me.
    Mr. Chabot. The gentleman's time is expired, but you can 
respond to the record.
    Mr. Shah. Sure. Well, on Javakheti we will continue funding 
with Fiscal Year 2015 funds for activities in those regions, 
and we can provide a more detailed response about the 10 
specific programs that will be supported in that context.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Chabot. On Nagorno-Karabakh, I just note that in the 
Fiscal Year 2015 budget the resources to support that effort 
are labeled in the Eurasia regional account. So our team will 
followup to make sure that it is clear how we are going to 
deploy those resources and the specific results. We have 
already achieved and expect to achieve on demining and on 
potable water in particular, which have been areas of focus for 
that implementation.
    And we will just continue to work with your office, but 
thank you for raising those, and I think we have hopefully been 
responsive in the context of the prior dialogue.
    Mr. Sherman. Thank you.
    Mr. Chabot. The gentleman's time is expired.
    And the gentleman from Florida, Mr. Yoho is recognized for 
5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman.
    Dr. Shah, I appreciate you for being here. You have got 
impressive credentials and I look forward to talking to you.
    You started with USAID at the end of 2009, is that correct?
    Mr. Shah. Yes.
    Mr. Yoho. And so you have been there for quite a while. You 
have seen a lot of things and I am sure you know a lot of 
different things that we can do, and I commend you for 
streamlining the agency. When we can go back home, like you 
have heard a lot of members talk about giving foreign aid to 
other countries when we are kind of suffering here a little 
bit.
    The beginning of January 2013, there was the fiscal cliff. 
The world was going to end in America, then we had the 
sequestration, and then we had furloughs, and then, you know, 
people were being laid off in my district and then toward the 
end of September, beginning of October our Government shut 
down. And it was over money and certainly wasn't from an excess 
of money, and we are in a tight budget constraint and what I 
see is, you know, the way we are spending this money--and I 
understand the concept, and create goodwill, bring economic 
development to some of these countries so hopefully they become 
our allies, but I see so many times that we do that, and it is 
like the movie Groundhog Day. It is the same story over, and 
over, and over. And we are not getting the results that we 
intended to.
    And I am just reading here an article that is in the New 
York Times about the $1 billion that was given to Afghanistan 
and the Special Inspector General said there is hundreds of 
millions of dollars that are unaccountable, or unaccounted for.
    Can you explain what happened to that? Because we talk 
about transparency, and accountability, but this is a recent 
thing that just happened. We don't have that. How can we--I 
want to hear your thoughts on that, what happened to that and 
how we can prevent it.
    Mr. Shah. Sure. Sir, I can't speak to that specifically 
because I am not sure which pot of money that is referring to.
    [Additional information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Shah. But let me just say about Afghanistan in general. 
The USAID component of the investment has been about 2 to 3 
percent of the total cost of our global engagement in 
Afghanistan and for that 2 to 3 percent, we have helped to 
ensure that more than 8 million kids go to school, including 
more than 3 million girls compared to almost no girls before.
    We have helped to make sure that 65 percent or so of the 
population has basic access to health services, not 
comprehensive high-order healthcare, but vaccines, clean water, 
pills and things like that, and that has led to the fastest and 
most sustained reduction in child death, maternal death, and a 
huge increase in longevity of women's lives based on those 
programs.
    We have helped build out 2,200 kilometers of road with our 
military partners and with our international partners, and we 
have seen trade relationships blossom across the Pakistan-
Afghan border. We have also improved, and this is very 
important, the Afghan collection of customs revenue 
transparently, and so that it goes back to the Kabul government 
so the government can pay for more of their country's own needs 
themselves.
    You know, when I started we launched an effort called A3, 
the Accountability Assistance for Afghanistan. We tripled the 
number of people out reviewing projects and programs. We 
conducted reviews at the subgrant level. We implemented a 
system that allowed us to assess who is doing what, where 
resources are going, and we insisted on tighter monitoring.
    We conducted a sustainability review and stopped and took 
off the books projects that we didn't think could sustain into 
a future where American presence was going to be significantly 
diminished. What we are left with, I believe, is a program that 
will hopefully be able to sustain some of the gains that have 
been experienced on behalf of the Afghan people.
    And frankly, when I look at what happened this past 
weekend, 60 percent voter turnout, a higher percentage of women 
voting, Afghan institutions that we have been working with and 
supporting for years in the lead in terms of electoral 
complaints and conduct of the election and there is a lot to do 
before we can label this a success.
    Mr. Yoho. You know, time will tell on that.
    Mr. Shah. Just 2 to 3 percent helps our country greatly, 
and I appreciate your efforts to advocate for it and support it 
and hold us to account.
    Mr. Yoho. Well, time will tell how well that turns out. But 
again, you know, in my own community, we have got over 500 
underperforming septic tanks and we can't get them fixed 
because of money. I just met with somebody with disabilities, 
and they can't get the service they need because of the lack of 
money. And I just, I guess what I am going to ask is that you 
let us know what we can do to help you be more effective, more 
efficient, to hold everything more accountable, so that when we 
do give money out we get the results we want, so that we are 
not here in a year talking about another $100 million being 
lost and we don't know where it went to.
    I would love to see people in charge of that that we can 
come back to and say, Dr. Shah, you had this money last year, 
where did it go? Why is it not spent the way it was supposed to 
be so that we can bring an end to that kind of lost funds.
    And I appreciate you being here. Thank you.
    Mr. Shah. Thank you.
    Mr. Chabot. Thank you. The gentleman's time is expired.
    The gentleman from North Carolina, Mr. Meadows, is 
recognized for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you, Dr. Shah. I think I am your last hurrah here. 
But I want to say thank you for your leadership and many of 
your staffers who have taken notes, patiently been behind you 
supporting, thank you for all of your work as well.
    There are a number of people across the world that will 
never be able to tell you thank you, and so on behalf of them, 
I want to say thank you. As we start to look at priorities and 
that is really the subject of this hearing, there are a couple 
of areas that are troubling to me, and so I don't want anything 
taken that is not being appreciative of your work.
    Global Fund, we have had Mark, the executive director here 
with Global Fund. I am a huge fan to see some of the work that 
he has done, the impact that it has done, and truly, some of 
the reforms that have been made to make sure that every dollar 
goes further.
    It appears that there is a little over $500 million 
requested for global climate change initiatives within your 
agency. Would you say that your agency is the best one to be 
implementing that, because it is not just your agency. It is a 
number of agencies throughout the Federal Government that have 
requested money for global climate change initiatives and yet, 
when you look at the core principle of what you do, that 
doesn't seem to align with your core mission. Can you address 
that?
    Mr. Shah. Sure. Well, thank you, and you know, first, I 
would ask that my team followup on the specific number, because 
that is a little high.
    Mr. Meadows. I think it is $506.3 million.
    Mr. Shah. It might be lower, but we will follow up on that.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Shah. But I do want to note, in this portfolio, are 
some efforts that are actually quite critical to our ability to 
be successful at ending extreme poverty. One is a component to 
support illegal deforestation and we work with companies, big 
consumer goods companies like Procter & Gamble, Unilever, to 
make sure that the supply chains they are supporting are not 
causing down at the farmer level in Indonesia and Colombia, 
large-scale deforestation.
    Mr. Meadows. So how do you coordinate that with the other 
agencies?
    Mr. Shah. Well, that is an effort called the Tropical 
Forest Alliance where we lead the coordination. The White House 
is critical to bringing other agencies together, and we present 
one consistent interface to the major companies that are part 
of a group called the Consumer----
    Mr. Meadows. So how much do you need for that particular 
program?
    Mr. Shah. I am not----
    Mr. Meadows. I guess my question is, whenever you get a pot 
of money----
    Mr. Shah. Yes.
    Mr. Meadows [continuing]. And there is more than one person 
managing that pot of money, it becomes very difficult to manage 
it.
    Mr. Shah. Yeah.
    [Additional information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Meadows. It is like giving your wife the same checkbook 
and never reconciling. You know, you spend out of the same 
checkbook and you never reconcile. So how are we reconciling 
that?
    Mr. Shah. Well, so I think that there are different 
components of this that different people have responsibility 
for. So USAID takes responsibility for the Tropical Forest 
Alliance. For our resilience efforts we measure and monitor the 
risk of disasters coming from droughts, for example, and we can 
then track what the climate impacts are on our humanitarian 
portfolio, respond quicker and more coherently.
    We have a clean energy program that supports, you know, we 
have talked about some hydro projects in Pakistan and programs 
in Africa, that helped to provide off-grid renewable energy, so 
that I and other agencies do----
    Mr. Meadows. And all of those are worthwhile. I don't want 
to go on record to say that they are not. But we have people 
dying and people who, quite frankly, just don't have food and 
yet, we are doing something that is way out in the future 
instead of meeting those individual needs right now and is that 
a top priority, or should that be even in the top 10 of your 
priorities in terms of the Nation?
    Mr. Shah. Let me give you one example. You know, we work to 
create improved seeds in sub-Saharan Africa, in East Africa 
that can perform better in environments that are hotter----
    Mr. Meadows. So that comes under global climate change 
initiatives? Because I thought that was in a different pot of 
money.
    Mr. Shah. We do a lot of attribution here. So I think we 
have counted some of that work in the context of this, but we 
can go through a full portfolio.
    [Additional information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Meadows. I have a real concern----
    Mr. Shah. Yeah.
    Mr. Meadows [continuing]. That your core mission has 
creeped over into one that might be better suited for a 
different agency. The other thing I would ask you, and I am 
running out of time, but I am very troubled with the amount of 
money that we give to the Palestinian Authority and yet, what 
that fungible money, you know, they are paying $46 million 
additional to terrorists and applauding their efforts as 
heroes.
    The minister of prisons said that these terrorists are 
heroes. I have, you know, it is hard to justify when we go back 
home that we are giving money, and yet they are taking part of 
their money to support terrorists and I need you, because part 
of the omnibus said that Secretary of State needs to certify 
that incitement and those things are not happening, and I need 
you all to address that.
    And I am out of time. I appreciate the patience of the 
chair.
    Mr. Shah. Sir, can I just respond?
    Mr. Chabot. The gentleman's time is expired, but you can 
respond, yes.
    Mr. Shah. I just want to point out that the mechanisms we 
use for support in that area are very, very precise. We have a 
vetting system that ensures we know who is receiving the 
resources at the endpoint of use, and the cash transfer to the 
Palestinian Authority is actually done through--it enables the 
repayment of payments that are owed through an Israeli bank and 
it is structured very, very carefully.
    So I will have our team followup, but I can assure you on 
those that they have been carefully scrutinized, and they 
require the Secretary's clearance as is appropriate, and we can 
show you exactly how the money moves that will offer you a lot 
of confidence.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Chabot. Thank you. The gentleman's time is expired.
    We thank the Administrator for his time here this morning, 
and we look forward to following up on these critical issues.
    And if there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      <F-dash>\<n-iden-3><pound><box> <lrg-box><F-dash><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <because><F-dash><Register>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             <F-dash>\<dot-box><box>at<careof><Rx><bullet> 
                     <because><F-dash><Register>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          <F-dash>\\<star><Copyright>a<brit-pound><script-l> 
                     <because><F-dash><Register>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     <F-dash>\<n-iden-3><pound><box> <because><F-dash><Register>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
